Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    INDIAN HEALTH SERVICE



     A Management Evaluation of
Program Integrity and Ethics Functions




                   JUNE GIBBS BROWN
                    Inspector General

                     NOVEMBER 1998
                      OEI-04-97-00060
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse Flowers, Regional
Inspector General, and Christopher Koehler, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                               HEADQUARTERS

Peggy Daniel, Project Leader                         Al Levine, Program Specialist

Ron Kalil, Team Leader

Jackie Watkins, Program Analyst

Graham Rawsthorn, Program Analyst

Betty Apt, Program Analyst




    To obtain copies of this report, please call the Atlanta Regional Office at (404) 562-7732.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To determine whether or not the program integrity and ethics function within the Indian Health
Service is organized, staffed, and operating effectively.

BACKGROUND

Within the Department of Health and Human Services, the Indian Health Service (IHS) is the
primary provider of health care to an estimated 1.4 million American Indians and Alaska Natives.
The IHS employs about 14,000 people nationwide. Its Fiscal Year 1997 budget was $2.3 billion.

The program integrity and ethics staff have three major responsibilities. They

 <     investigate complaints and allegations about IHS and tribal employees,

 <     perform ethics activities, and

 <     coordinate personnel suitability investigations.

The IHS Director asked the Office of Inspector General to evaluate, for effectiveness, the
operation of its program integrity and ethics function. We did so by comparing IHS’ program
integrity and ethics operations to those of four other organizations. The four selected
organizations were the Food and Drug Administration (FDA), National Institutes of Health
(NIH), Centers for Disease Control and Prevention (CDC), and Health Resources and Services
Administration (HRSA). We also surveyed and interviewed staff at IHS headquarters and 11 of
its 12 area offices.

FINDINGS

The Mission, Policies, and Procedures for Program Integrity and Ethics Are Not Clear

Staff at IHS headquarters seem to understand the mission, policies, and procedures for program
integrity and ethics. However, over half of the staff at area offices said the mission, policies, and
procedures are not clear to them. The IHS has not finalized its operating policies and procedures
which have been in draft for over 2 ½ years. Over half of the IHS area offices had not received
copies of the draft manual. Because of confusion over policies and procedures, personnel
suitability functions were not completed or not completed timely.

Organizational Structure Obscures Visibility and Prominence

The program integrity and ethics function is not clearly identifiable in the current organizational
structure. Its visibility and prominence was obscured during a March 1997 reorganization.




                                          )))))))))))
                                               i
Organizational Placement Fragments Responsibility for Personnel Suitability

Responsibility for one program integrity and ethics function--personnel suitability is fragmented.
The conduct of personnel suitability investigations is shared by several IHS components. IHS
policies and procedural guidance does not clearly delineate the specific responsibilities of each
organization, or the processes for sharing responsibilities. The four other organizations we
reviewed all placed the personnel suitability function in one office--Division of Human Resources.

Staffing May Be Inadequate

The IHS had one program integrity and ethics staff member for every 4,666 agency employees.
This ratio was less than that of any of the other four organizations we reviewed.

RECOMMENDATIONS

Effective administration of IHS’ program integrity and ethics function can be improved by
clarifying responsibilities, and enhancing visibility and prominence within the organization.

We recommend that the IHS Director

 <	    Finalize its policies and procedures manual and distribute it to all offices as soon as
       possible. The manual should clearly delineate the integrity and ethics responsibilities of all
       IHS components, and procedures for components to follow in carrying out IHS' overall
       policy.

 <	    Disseminate materials such as letters, brochures, and pamphlets to all IHS staff. Such
       materials should explain the program integrity and ethics functions and how they are
       carried out.

Regarding the question on adequacy of staff for effective accomplishment of program integrity
and ethics functions, we recognize that this difficult decision can only be made by IHS
management. In making the decision, management must consider many variables, including the
relative importance of all organizational goals and objectives, the priority use of limited staff
resources for accomplishment of those goals and objectives, and the relative strengths of assigned
staff. Simply increasing staff size may or may not be the solution for meeting IHS’ program
integrity and ethics objectives, although this may be one consideration. Another option that
management could consider is transferring some functions to other organizational components.

For example, the personnel suitability function could be transferred to the Division of Human
Resources. These and other such staffing options could help assure effective and timely
completion of IHS’ program integrity and ethics objectives.




                                          )))))))))))
                                               ii
AGENCY COMMENTS

We received comments from the Assistant Secretary for Management and Budget (ASMB) who
concurred with our recommendation that IHS finalize its policies and procedures manual and
distribute it to all offices as soon as possible. However, ASMB raised questions about the
significance of our original finding on the organizational location of the personnel suitability
function. We revised our findings to emphasize that the unspecified sharing of duties and
responsibilities among the two components has resulted in confusion and inconsistent
administration of the personnel suitability duty.

The IHS did not comment on the draft report, but plans to provide comments on the final report.

Appendix C shows the full text of ASMB’s comments.




                                         )))))))))))
                                              iii
                              TABLE OF CONTENTS

                                                                                                                                PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


 Mission, Policies, Procedures Unclear . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


 Visibility and Prominence Obscured . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


 Personnel Suitability Responsibility Fragmented. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


 Staffing May Be Inadequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDICES


 Former Organizational Charts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


 Current Organizational Charts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


 Text of Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-1

                             INTRODUCTION

PURPOSE

To determine whether or not the program integrity and ethics function within the Indian Health
Service is organized, staffed, and operating effectively.

BACKGROUND

Indian Health Service

Within the Department of Health and Human Services, the Indian Health Service (IHS) is the
primary provider of health care to an estimated 1.4 million American Indians and Alaska Natives.
The IHS employs about 14,000 people nationwide. Its Fiscal Year 1997 budget was $2.3 billion.

Program Integrity and Ethics

The program integrity and ethics staff is located in IHS headquarters in Rockville, Maryland.
Organizationally, program integrity and ethics is located within the Office of Management
Support. The Office of Management Support is one of three major components of the IHS. The
two remaining components are the Office of Director and Office of Public Health.

The program integrity and ethics staff have three major responsibilities. They

 <     investigate complaints and allegations about IHS and tribal employees,

 <     perform ethics activities, and

 <     coordinate personnel suitability investigations.

Complaints and allegations may be submitted to the IHS or referred by the Office of Inspector
General, Office of Investigations. Ethics activities include providing ethics training, coordinating
outside activities reports and financial disclosure reports. Personnel suitability generally refers to
verification of a person's character, reputation, trustworthiness, and fitness for Federal service.

METHODOLOGY

The IHS Director asked the Office of Inspector General (OIG) to conduct a management review
on the effectiveness of the organization of its program integrity and ethics function.

Specifically, the IHS Director asked us to determine whether or not the IHS program integrity
and ethics function is organized, staffed, and operating effectively. We did so by comparing the
operations of IHS' program integrity and ethics function to the program integrity and ethics
operations of four other organizations. The organizations selected for comparison were the Food
and Drug Administration (FDA), National Institutes of Health (NIH), Centers for Disease Control
and Prevention (CDC), and Health Resources and Services Administration (HRSA).

                                           )))))))))))
                                                1
At IHS and each selected organization, we examined the organizational structure, staffing
numbers and types, workload, policies, and operating procedures and practices. At each selected
organization, we conducted on-site reviews of program integrity and ethics operations.

We also obtained opinions from staff at IHS headquarters, including the program integrity and
ethics staff, and 11 of the 12 IHS area offices.1 One area office did not respond to our survey.
We personally interviewed IHS headquarters staff and the staff of one area office during on-site
reviews. We obtained operating data and opinions from staff at the remaining ten area offices
through use of a mail survey questionnaire. As necessary for clarification, we followed up by
conducting telephone interviews with area office staff.

We also conducted telephone interviews with OIG hotline staff to determine referral and
investigative procedures for allegations and complaints about the IHS, and for the other
organizations. Further, we interviewed, by telephone, staff at the Office of Government Ethics to
determine its relationship with the IHS and other organizations on ethics requirements.

Finally, we reviewed mission statements, policies, procedures, and program operations at the IHS
for the program integrity and ethics function, and at each organization selected for comparison.

                                                ---------------

We conducted our inspection between April 1997 and August 1997. We conducted the
inspection in accordance with Quality Standards for Inspections issued by the President's Council
on Integrity and Efficiency.




        1
         The 12 Area Offices are Aberdeen, Albuquerque, Alaska, Bemidji, Billings, California, Nashville,
Navajo, Oklahoma City, Phoenix, Portland, and Tucson.

                                               )))))))))))
                                                    2
                                     FINDINGS

MISSION, POLICIES, AND PROCEDURES ARE NOT CLEAR

Staff at IHS headquarters seem to understand the mission, policies, and procedures for program
integrity and ethics. However, over half of the staff at area offices said the mission, policies, and
procedures are not clear to them. They did not understand what the program integrity and ethics
staff was expected to accomplish, or how it operated. Staff at a few area offices said they have
limited communications with the program integrity and ethics staff because they do not
understand the purpose and procedures. Staff at one area office said training is needed to help
clarify the role of the program integrity and ethics staff.

IHS Has Not Finalized Policies and Procedures

One reason the mission, policies, and procedures are not clear for the program integrity and ethics
function is that the IHS has not published final operating policies and procedures. At the time of
our inspection, the policies and procedures manual had been in draft for over 2 ½ years.

More significantly, over half of area office staff responding to our inspection survey said they had
not been provided copies of the draft manual.

Also, the draft manual itself needs further revisions. It covers a wide range of program integrity
and ethics functions, but policies and procedures for some functions appear to be incomplete. To
illustrate, the draft policies and procedures manual requires the program integrity and ethics staff
to receive, investigate, and track complaints received through the OIG hotline referral process.
However, it is silent on what to do with complaints that are received directly by area offices.

Likewise, the manual lacks clarity on the responsibilities, relationships, and procedures for IHS
components that share program integrity and ethics duties.

To illustrate, IHS area office staff have directly received complaints and allegations about IHS
employees. The area office staff did not refer such complaints to the program integrity and ethics
staff, nor did they notify them of the existence or resolution of complaints. The area office staffs
told us they do not coordinate with the program integrity and ethics staff on complaints they
receive directly because they have not been instructed to do so. As a result, the program integrity
and ethics staff may be unaware of any complaints and allegations received directly by area
offices.

Lack of Clarity in IHS Draft Policies and Procedures Leads to Inefficiencies and
Ineffectiveness Particularly for Personnel Suitability

IHS area offices, program integrity and ethics staff, and Division of Human Resources share
certain responsibilities for personnel suitability investigations with the Federal Office of Personnel
Management (OPM). The area offices work with OPM to review cases for area office positions.




                                           )))))))))))
                                                3
However, the program integrity and ethics staff also review some area office cases, and those for
headquarters positions. Likewise, the IHS program integrity and ethics staff share responsibilities
with OPM and the IHS Division of Human Resources for processing personnel suitability cases
within the IHS.

Responsibilities Are Not Clearly Delineated Between IHS Organizational Components

The overlapping and sharing of responsibilities within and outside the IHS does not necessarily
create inefficiency or ineffectiveness. However, IHS policies and procedural guidance does not
clearly delineate the specific responsibilities of each organization, or the processes for sharing
responsibilities.

As a result, personnel suitability case investigations do not flow smoothly and timely through the
organization. To illustrate, the OPM normally sends personnel suitability cases for 2 of the 11
area offices directly to the appropriate area office rather than to the program integrity and ethics
staff. This procedure seems to conflict with IHS draft policy and procedure guidance. However,
this seems to be the procedure preferred by most area office staff.

Conversely, the OPM normally sends personnel suitability cases for 8 of the 11 area offices to
IHS program integrity and ethics staff. This procedure seems to be consistent with IHS draft
policy manual. However, area office staffs said that they prefer OPM to send the cases directly to
the area office.

Staff at the remaining area office said they did not know whether or not OPM normally sends
personnel suitability cases to its area office or to the program integrity and ethics staff.

Routing Personnel Suitability Cases Through Program Integrity and Ethics Staff May Be
Unnecessary and Ineffective

In instances where OPM sent area office cases to the program integrity and ethics staff, that staff
largely performed only a pass-thru function. The cases typically were not reviewed by the
program integrity and ethics staff, but instead were rerouted to the appropriate area office for
review.

Area office staffs said that routing personnel suitability cases through the program integrity and
ethics staff is an unnecessary step that makes the review and approval process untimely. Further,
some said that the program integrity and ethics staff were not always timely in rerouting cases to
the appropriate area offices for their review.

For example, staff at one area office said the program integrity and ethics staff took about a year
to route some cases to them. Staff at another area office said the program integrity and ethics
staff routed them the personnel suitability cases for another area office. Thus, the personnel
suitability reviews were not completed timely.

Finally, area office staffs seemed confused about which organizational component had what
responsibility. To illustrate, staff at 8 of the 11 area offices responding to our survey said they

                                           )))))))))))
                                                4
contact and rely on the Division of Human Resources for help with personnel suitability issues.
The remaining 3 said they use the program integrity and ethics staff. This practice may or may
not result in communication of consistent information and guidance to area offices on personnel
suitability issues.

ORGANIZATIONAL STRUCTURE OBSCURES VISIBILITY AND PROMINENCE

Prior to March 1997, program integrity and ethics was a staff function under the IHS Office of
Administration and Management (See Chart 1). According to some IHS staff, this organizational
scheme gave the program integrity and ethics function a clearly visible, identifiable position on
IHS' organizational chart. Appendix A provides a detailed organizational chart.


                                             CHART 1

                                   FORMER ORGANIZATIONAL CHART


                                                  OFFICE OF THE DIRECTOR




                      OFFICE OF                                                  OFFICE OF
      OFFICE OF                                                     OFFICE OF                   OFFICE OF
                      PLANNING,      OFFICE OF       OFFICE OF                    HEALTH                     OFFICE OF
    ADMINISTRATION                                               ENVIRONMENTAL                INFORMATION
                     EVALUATION       TRIBAL          HEALTH                     PROGRAM                      HUMAN
         AND                                                       HEALTH AND                  RESOURCES
                         AND         ACTIVITIES      PROGRAMS                  RESEARCH AND                 RESOURCES
     MANAGEMENT                                                   ENGINEERING                 MANAGEMENT
                     LEGISLATION                                               DEVELOPMENT




 PROGRAM INTEGRITY
  AND ETHICS STAFF




The visibility and prominence of the program integrity and ethics function was obscured,
however, during a March 1997 reorganization (See Chart 2). At that time, the program integrity
and ethics function was blended into the Office of Management Support. The program integrity
and ethics function is no longer clearly visible on the organizational chart. The oversight and
results of the program integrity and ethics function flow through the Director, Office of
Management Support. Appendix B provides a more detailed organizational chart.




                                                    )))))))))))
                                                         5
                                           CHART 2

                                 CURRENT ORGANIZATIONAL CHART


                                                           OFFICE OF THE
                                                             DIRECTOR




                                              OFFICE OF
                                                                           OFFICE OF PUBLIC
                                             MANAGEMENT
                                                                               HEALTH
                                               SUPPORT




   DIVISION OF     DIVISION OF       DIVISION OF       DIVISION OF      DIVISION OF           DIVISION OF    DIVISION OF
 ADMINISTRATIVE    FINANCIAL       ACQUISITION AND       HUMAN         INFORMATION            REGULATORY       HEALTH
    SUPPORT       MANAGEMENT           GRANTS          RESOURCES       TECHNOLOGY              AND LEGAL    PROFESSIONS
                                    MANAGEMENT                            SUPORT                AFFAIRS




As can be seen, the new organizational chart does not specifically identify the location of program
integrity and ethics staff. A May 1997 Office of Government Ethics review also pointed out the
lack of visibility and prominence for the program integrity and ethics function in the revised
organizational structure.

ORGANIZATIONAL PLACEMENT FRAGMENTS RESPONSIBILITY FOR
PERSONNEL SUITABILITY

In the March 1997 reorganization, the IHS placed both the program integrity and ethics staff and
the Division of Human Resources staff under one head--the Office of Management Support.
Therefore, after the reorganization, the Director, Office of Management Support had overall
responsibility for integrity, ethics, and personnel suitability functions. Within that Office,
however, the personnel suitability function remains fragmented between the Director’s Office and
the Division of Human Resources. Those duties are also shared by area offices. As observed
elsewhere in this report, this unspecified sharing of duties has resulted in confusion and
inconsistent administration of duties.

We observed that the selected organizations we reviewed all located the personnel suitability
function in one office. They generally chose to locate this function in the Office of Human
Resources. (See Table 1). We did not evaluate the efficiency and effectiveness of the personnel
suitability function in the selected organizations, however, it seems logical that they chose not to
fragment such functions.




                                                     )))))))))))
                                                          6
                                TABLE 1

           ORGANIZATIONAL LOCATION OF PROGRAM INTEGRITY AND

                           ETHICS FUNCTIONS



 FUNCTION              IHS             FDA             CDC           NIH               HRSA
 Integrity        Office of       Commissioner's   Office of     Office of      Office of
 (Complaints)     Management      Office           Management    Management     Management &
                  Support                          Operations    Assessment     Program Support
 Ethics           Office of       Office of        Office of     Office of      Office of Human
 (Training and    Management      Human            Human         Human          Resources
 Other            Support         Resources        Resources     Resources
 Activities)
 Personnel        Office of       Office of        Office of     Office of      Office of Human
 Suitability      Management      Human            Human         Human          Resources
                  Support         Resources        Resources     Resources


STAFFING MAY BE INADEQUATE

Program Integrity and Ethics Staffing Is Smaller than That of Other Organizations

At June 17, 1997, IHS had 1 program integrity and ethics staff member for every 4,666

employees in the agency. This ratio of program integrity and ethics staff to agency

employees was much less than that of any of the other four selected organizations we examined

(See Table 2). 


Our finding corroborated findings reported by the Office of Government Ethics in its 1997 report.


                            TABLE 2

  COMPARISON OF IHS HEADQUARTERS PROGRAM INTEGRITY AND ETHICS

       STAFFING TO THAT OF OTHER SELECTED ORGANIZATIONS



                               Headquarters Staff Assigned      Ratio of Integrity, Ethics, and
                  Agency         to Integrity, Ethics, and      Personnel Suitability Staff to
  Agency         Employees         Personnel Suitability             Agency Employees
    IHS           14,000                      3                              1:4,666
    FDA            9,000                      29                              1:310
    CDC            6,000                      11                              1:545
    NIH           17,000                      16                             1:1,062
   HRSA            1,800                      2                               1:90


                                        )))))))))))
                                             7
Program Integrity and Ethics Staffing Has Decreased Over the Past Few Years

From December 1993 to June 1997, IHS' program integrity and ethics staffing decreased from
seven staff members to three (See Chart 3).

                                     CHART 3
                       PROGRAM INTEGRITY AND ETHICS STAFFING
                      Number of Staff




Functions Were Not Completed Timely

The Office of Government Ethics reported in 1997 that certain ethics functions had not been
completed, or were not completed timely--particularly financial disclosures and training functions.
The Office of Government Ethics expressed concern that IHS had not allocated sufficient staffing
resources to administer such ethics functions, while also administering integrity functions. At the
time, IHS had four members assigned to its program integrity and ethics function.

Our findings corroborated those of the Office of Government Ethics.2 Also, we found that IHS
had not responded timely to OIG hotline complaints about IHS employees and programs. Some
IHS staff told us that integrity and ethics functions were not completed timely because the small
program integrity and ethics staff gave priority to the personnel suitability function. However, as
discussed earlier in this report, personnel suitability investigations were also not always done in a
timely manner.

Coordinating and investigating personnel suitability, according to IHS headquarters staff, requires
significant staff resources. To illustrate, the Indian Child Protection and Family Violence
Prevention Act requires character investigations on all individuals who have regular contact with,
or control over Indian children. Also, such investigations must be done for every potential IHS
employee. Therefore, little time is left for program integrity and ethics staff to do other functions.



        2
          Office of General Counsel, Office of Government Ethics, United States Department of Health and Human
Services, Office of Government Ethics Review of IHS’ Ethics Program, May 6, 1997.

                                              )))))))))))
                                                   8
                      RECOMMENDATIONS

Effective administration of IHS’ program integrity and ethics function can be improved by
clarifying responsibilities, and enhancing visibility and prominence within the organization.

We recommend that the IHS Director

 <	    Finalize its policies and procedures manual and distribute it to all offices as soon as
       possible. The manual should clearly delineate the integrity and ethics responsibilities of all
       IHS components, and procedures for components to follow in carrying out IHS' overall
       policy.

 <	    Disseminate materials such as letters, brochures, and pamphlets to all IHS staff. Such
       materials should explain the program integrity and ethics functions and how they are
       carried out.

Regarding the question on adequacy of staff for effective accomplishment of program integrity
and ethics functions, we recognize that this difficult decision can only be made by IHS
management. In making the decision, management must consider many variables, including the
relative importance of all organizational goals and objectives, the priority use of limited staff
resources for accomplishment of those goals and objectives, and the relative strengths of assigned
staff. Simply increasing staff size may or may not be the solution to meeting IHS’ program
integrity and ethics objectives, although this may be one consideration. Another option that
management could consider is transferring some functions to other organizational components.
For example, the personnel suitability function could be transferred to the Division of Human
Resources. These and other such staffing options could help assure effective and timely
completion of IHS’ program integrity and ethics objectives.




                                          )))))))))))
                                               9
                      AGENCY COMMENTS

We received comments from the Assistant Secretary for Management and Budget (ASMB) who
concurred with our recommendation that IHS finalize its policies and procedures manual and
distribute it to all offices as soon as possible. However, ASMB raised questions about the
significance of our original finding on the organizational location of the personnel suitability
function. We revised our findings to emphasize that the unspecified sharing of duties and
responsibilities among the two components has resulted in confusion and inconsistent
administration of the personnel suitability duty.

The IHS did not comment on the draft report, but plans to provide comments on the final report.

Appendix C shows the full text of ASMB’s comments.




                                          )))))))))))
                                              10
                                         A P P E N D I X A

                                FORMER ORGANIZATIONAL CHARTS




                                                                                              POLICY REVIEW AND
                                                                                              COORDINATION STAFF
                                                  OFFICE OF THE
             COMMUNICATIONS STAFF
                                                    DIRECTOR
                                                                                              EQUAL EMPLOYMENT
                                                                                             OPPORTUNITY AND CIVIL
                                                                                                 RIGHTS STAFF
                                                                      OFFICE OF TRIBAL
                                                                     SELF-GOVERNANCE




  OFFICE OF        OFFICE OF                                    OFFICE OF    OFFICE OF      OFFICE OF
                                 OFFICE OF      OFFICE OF                                                  OFFICE OF
                   PLANNING,                                 ENVIRONMENTAL    HEALTH      INFORMATION
ADMINISTRATION                    TRIBAL         HEALTH                                                     HUMAN
                  EVALUATION                                   HEALTH AND    PROGRAM       RESOURCES
     AND                         ACTIVITIES    PROGRAMS                                                   RESOURCES
                      AND                                     ENGINEERING  RESEARCH AND   MANAGEMENT
 MANAGEMENT       LEGISLATION                                              DEVELOPMENT


                                                         AREA
                                                        OFFICES




                                                 OFFICE OF                         PROGRAM
                                               ADMINISTRATION                     INTEGRITY
                                              AND MANAGEMENT                      AND ETHICS


  D IVISI ON OF      DIVIS ION OF        DIVISION OF          DIVIS ION O F     DIVISION OF       DIVISION OF
 MANAGEM ENT       AD MINI STRATIVE      RESOURCES          CONT RACT S AND       SUPPLY        ACQU ISIT ION AND
     POL ICY           SERVIC ES        MANAGEM ENT             GRANTS         M ANAGE MENT         GRA NTS
                                                             M ANAGEM ENT                         OPERATIONS




                                                  )))))))))))
                                                     A-1
                                     APPENDIX B



                            CURRENT ORGANIZATIONAL CHARTS



                                                  OFFICE OF THE
                                                    DIRECTOR




                                   OFFICE OF
                                                                OFFICE OF
                                  MANAGEMENT
                                                              PUBLIC HEALTH
                                    SUPPORT




                                                   OFFICE OF
                                                  MANAGEMENT
                                                    SUPPORT
                                                                        MANAGEMENT
                             EXECUTIVE
                                                                       POLICY SUPPORT
                            SECRETARIAT
                                                                            STAFF




                                  DIVISION OF                       DIVISION OF    DIVISION OF
  DVISION OF      DIVISION OF                       DIVISION OF                                   DIVISION OF
                                ACQUISITION AND                    INFORMATION     REGULATORY
ADMINISTRATIVE    FINANCIAL                           HUMAN                                         HEALTH
                                    GRANTS                         TECHNOLOGY       AND LEGAL
   SUPPORT       MANAGEMENT                         RESOURCES                                    PROFESSIONS
                                 MANAGEMENT                          SUPPORT         AFFAIRS




(Note that the program integrity and ethics staff cannot be identified on this organizational chart.)




                                              )))))))))))
                                                  B-1
APPENDIX C





ASMB COMMENTS





   )))))))))))
       C - 1

)))))))))))
    C - 2

)))))))))))
    C - 3

